                                                           NATIONAL SCIENCE FOUNDATION
                                                               4201 WILSON BOULEVARD                                           .
                                                               ARLINGTON. VIRGINIA 22230
                                                                                                       Case Close-out-
                                                                                                                      aw                    ,.




      OFFICE OF
 INSPECTOR GENERAL



                                                                                                                                             i

 MEMORANDUM

Date:                               January 18,2000
                                        ....................

From:
                                   -riminal                      ......... .......   . . . . . . . .
                                                                                                        Trainee      --,-.   . . . . . . . . .




To:

Through:
                     . . .. ....
                           ,


Re:




          We received an anonymous letter alleging that the President- o
h-as                   been submitting duplicate proposals and reports in order to obtain
   funding from multiple agencies for the same work.

Investigation

       We reviewed several proposals and final reports which had been submitted by
             o multiple agencies. We particularly focused on proposals with similar or
                In each case, we discovered that although the proposals were similar, the
proposals submitted at later dates disclosed the perforrr&ce of "similar work" which' had
been funded by other agencies. In addition, the final reports from these grants and
contracts were not alike.

Findings

       Although several proposals submitted bye -               similar, the company
                      -
disclosed other funding and performed work which  resulted in different final reports:
This case is closed.
